           Report No. D-2011-032                     January 7, 2011




    Logistics Civil Augmentation Program Support
   Contract Needs to Comply With Acquisition Rules




                                         Warning
The enclosed document is the property of the Department of Defense, Office of Inspector
General. Release or disclosure of the contents is prohibited by DOD Directive 5106.1.
Contents may be disclosed only to persons whose official duties require access hereto.
Contents cannot be released outside the Defense Department without the approval of the
Department of Defense, Office of Inspector General.
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937(DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ASA(ALT)                      Assistant Secretary of the Army for Acquisition, Logistics,
                                and Technology
BCAT                          Base Closure Assistance Team
COR                           Contracting Officer’s Representative
DCMA                          Defense Contract Management Agency
DPD                           Deputy Program Director
FAR                           Federal Acquisition Regulation
LOGCAP                        Logistics Civil Augmentation Program
MNC-I                         Multi-National Corps-Iraq
MPRI                          Military Professional Resources Incorporated
PCO                           Procuring Contracting Officer
PWS                           Performance Work Statement
QASP                          Quality Assurance Surveillance Plan
RICC                          Rock Island Contracting Center
U.S.C.                        United States Code
USF-I                         U.S. Forces-Iraq
                                              INSPECTOR GENERAL
                                             DEPARTMENT OF DEFENSE
                                              400 AR MY NAVY DRIVE
                                       AR LI NGTON, VIR GINI A 22202-4704



                                                                                               January 7, 2011

MEMORANDUM FOR ARMY AUDITOR GENERAL

SUBJECT: Logistics Civil Augmentation Program Support Contract Needs to Comply
         With Acquisition Rules (Report No. D-2011-032)

We are providing this report for review and comment. In February 2007, the Army
awarded an indefinite-delivery, indefinite-quantity contract to Serco, Incorporated, to
provide support and analysis for the Logistics Civil Augmentation Program throughout
the world. Army contracting officials did not properly manage this contract, valued at
approximately $117 million; instructed the contractor to perform work outside the scope
of the contract; and did not provide adequate oversight and surveillance. We considered
management comments on a draft ofthis report when preparing the final report.

We received comments from the Logistics Civil Augmentation Program support contract
award fee determining official, the Logistics Civil Augmentation Program support
contract procuring contracting officer, and the Rock Island Contracting Center non-
Logistics Civil Augmentation Program contracting officers too late to include them in the
final report. DOD Directive 7650.3 requires that all recommendations be resolved
promptly. Therefore, if the Rock Island Contracting Center and Logistics Civil
Augmentation Program personnel do not submit additional comments by February 7,
2011 , we will consider the comments received as the response to the fmal rep0l1 .
Comments from the Assistant Secretary orthe Army for Acquisition, Logistics, and
Technology were pm1ially responsive . Therefore, we request additional comments on
Recommendation A.3 that clarify management's intended actions by February 7, 2011.

lfpossible, send a .pdffile containing your comments to audacm@dodig.mil. Copies of
your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SlPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).



                                                          Richard B. Jolliffe
                                                          Assistant Inspector General
                                                          Acquisition and Contract Management

                                             SPECIAL )VARNING
          t contains contractor information that may be company confidential or r        'y.
Section J905, tI         'ted States Code, and section 423, title 41, Uni  es Code, provide
specific penalties for the unaut      . closure of com          Idcntial or proprietary
information. You must safeguard this rc               . ce with DOD Regulation 5400.7 R.

pp'o~r3t~io~"~s~o;riia~lIfsi~,..;rrf(olrrmation contained in this document is exempt from pu       se under 5
l,! ~            (b)(S).
                                      FOR OFFICIA:L USE OPiLY
Report No. D-2011-032 (Project No. D2010-D000AS-0031.000)                 January 7, 2011


               Results in Brief: LOGCAP Support Contract
               Needs to Comply With Acquisition Rules
                                                     The PCO did not provide adequate oversight, and
What We Did                                          the contracting officer’s representatives (CORs)
We reviewed management and administration of         in-theater did not adequately monitor the
the Army Logistics Civil Augmentation                contractor’s performance. This occurred because
Program (LOGCAP) support contract, valued at         the PCO did not develop a requirements-based
approximately $117 million. Army contracting         quality assurance surveillance plan (QASP) and
officials did not properly manage this contract,     did not effectively communicate with the CORs.
instructed the contractor to perform work            As a result, the PCO has no assurance that the
outside the scope of the contract, and did not       Army received services in accordance with
provide adequate oversight and surveillance.         contract requirements or that a portion of the
                                                     contractor’s $2.3 million in performance-based
                                                     award fees was justified.
What We Found
(FOUO) LOGCAP officials instructed the               What We Recommend
LOGCAP support contractor to provide
requirements development assistance for at least     The LOGCAP support contract PCO should
71 non-LOGCAP contract requirements valued           compete non-LOGCAP requirements. Non-
at approximately $1 billion and did not              LOGCAP contract PCOs should also advise
appropriately address potential organizational       bidders that a third-party contractor may have
conflicts of interest or the support contractor’s    access to their proposals. Additionally, the
access to proprietary information with regard to     LOGCAP support contract PCO should prohibit
non-LOGCAP contracts. This occurred because          the support contractor from performing work on
contracting officials concluded that the work        any contract resulting from their services, not
was within scope,                                    exercise the option year for the BCAT task
           As a result, Army contracting officials   order, write a proper QASP for each task order,
allowed the support contractor to assist in          and develop and implement a process for
developing requirements for non-LOGCAP               communicating with CORs effectively.
contracts that it could have potentially competed
and may have violated Federal regulations by         Management Comments and
providing support contractors with other             Our Response
contractors’ proprietary information.                The Assistant Secretary of the Army for
                                                     Acquisition, Logistics, and Technology
The procuring contracting officer (PCO) issued       (ASA[ALT]) agreed to review the actions of
a task order for base closure assistance teams       LOGCAP contracting personnel. However, the
(BCATs), valued at $9.3 million, that was            comments were only partially responsive.
outside the scope of the support contract. Rock      RICC contracting officials provided comments,
Island Contracting Center (RICC) and                 but they were received too late to be
LOGCAP officials concluded that the task order       incorporated into the final report. We request
could be executed to support LOGCAP even             that the ASA(ALT) provide additional
though the work was to support the Multi-            comments by February 7, 2011. Please see the
National Corps-Iraq. As a result, the                recommendations table on the back of this page.
requirements were not competed.

                                      FOR OFFICIAL USE ONLY
                                                 i
Report No. D-2011-032 (Project No. D2010-D000AS-0031.000)         January 7, 2011

Recommendations Table

           Management                 Recommendations       No Additional
                                      Requiring Comment     Comments Required
Assistant Secretary of the Army for   A.3.a and b           A.3.c
Acquisition, Logistics, and
Technology
Logistics Civil Augmentation          C.2
Program Support Contract Award Fee
Determining Official
Logistics Civil Augmentation          A.1, B, C.1
Program Support Contract Procuring
Contracting Officer
Rock Island Contracting Center Non-   A.2
Logistics Civil Augmentation
Program Contracting Officers

Please provide comments by February 7, 2011.




                                            ii
Table of Contents
Introduction                                                                    1

      Audit Objective                                                          1
      Background on LOGCAP Support Contract                                    1
      Additional Controls Needed for the LOGCAP Support Contract               2

Finding A. Support Contractor Allowed to Perform Non-LOGCAP Work                4

      Out of Scope Work                                                         4
      Added Work Created Conflict of Interest                                   8
      Conclusion                                                               12
      Recommendations, Management Comments, and Our Response                   13

Finding B. Task Order for Multi-National Corps-Iraq Outside the Scope
            of the Contract                                                    16

      Base Closure Assistance Teams Task Order Issuance                        16
      Multi-National Corps-Iraq Base Closure Assistance Teams Requirement
         Outside the Scope of the LOGCAP Support Contract                      17
      Procuring Contracting Officer Did Not Restrict Base Closure Assistance
         Teams’ Operations                                                     20
      United States Forces-Iraq to Issue New Base Closure Contract             20
      Conclusion                                                               20
      Recommendation                                                           21

Finding C. Oversight Improvements Needed for the LOGCAP Support
            Contract                                                           22

      Criteria for Contract Oversight                                          22
      Lack of a Requirements-Based Quality Assurance Surveillance Plan         22
      More Oversight and Monitoring is Needed                                  24
      Contractor May Have Received Unjustified Award Fees                      28
      Conclusion                                                               31
      Recommendations                                                          32

Appendix. Scope and Methodology                                                34

      Prior Coverage                                                           35

Management Comments

      Assistant Secretary of the Army for Acquisition, Logistics,
        and Technology                                                         37


                           FOR OFFICIAL USE ONLY
Introduction
Audit Objective
Our audit objective was to determine whether Army officials managed and administered
the Logistics Civil Augmentation Program (LOGCAP) support contract in accordance
with Federal and DoD guidance. See the Appendix for a discussion of the scope and
methodology and prior audit coverage related to the audit objectives.

We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires:

       Thorough audits to identify potential waste, fraud, and abuse in the performance
       of (1) Department of Defense contracts, subcontracts, and task and delivery
       orders for the logistical support of coalition forces in Iraq and Afghanistan; and
       (2) Federal agency contracts, subcontracts, and task and delivery orders for the
       performance of security and reconstruction functions in Iraq and Afghanistan.

Background on the LOGCAP Support Contract
LOGCAP is an initiative by the Army to plan for contingency operations during
peacetime, using contractors to provide logistics support with reasonable assurance of
success and within reasonable cost. Under the LOGCAP IV program, the Army
competed and awarded LOGCAP IV performance contracts to three performance
contractors: DynCorp International, Fluor Intercontinental, and Kellogg, Brown, & Root
Services. Subsequent to the performance contract awards, the Government needed an
independent planning contractor to avoid the real or perceived conflict of having one of
the LOGCAP IV performance contractors plan and develop task order performance work
statements (PWSs) that all LOGCAP IV performance contractors would compete on.
According to the LOGCAP IV acquisition plan, the independent contractor would work
closely with Government staff in developing the plans and coordinate with the LOGCAP
IV performance contractors on those plans.

The LOGCAP IV support contract, W52P1J-07-D-0010, was awarded to Serco,
Incorporated (Serco), on February 16, 2007, to provide resources and expertise for
LOGCAP. Specifically, the contract stated that the program management analysis and
support requirements should focus on LOGCAP capabilities and/or resources to support
the Army, DoD Component, other Federal agencies, and non-governmental and coalition
forces when approved by the Department of the Army. The indefinite-delivery,
indefinite-quantity contract included 1 base year and 4 option years, with a contract
ceiling of $45 million per year. In February 2010, the Army exercised option year 3, and
the procuring contracting officer (PCO) definitized option year 3 in August 2010,
increasing the contract value to approximately $117 million.




                                                  1
Support Contract Management
The Army Sustainment Command, located in Rock Island, Illinois, is the LOGCAP
executive agent with overall responsibility for program management. The LOGCAP
Executive Directorate, located at Fort Belvoir, Virginia, is responsible for program
execution and reports to the Army Sustainment Command. LOGCAP support contractor
employees at the LOGCAP Executive Directorate assist the LOGCAP Director with
operations support.

Rock Island Contracting Center (RICC) is the acquisition center and awards and
administers LOGCAP contracts. LOGCAP support contractor employees at RICC assist
with program support. The Deputy Program Directors (DPDs) in Kuwait, Iraq, and
Afghanistan are responsible for oversight of the LOGCAP program in Southwest Asia.
LOGCAP support contractor employees deployed with the DPDs assist with program and
event support.

Task Orders
Table 1 shows the task order requirements and the 18 task orders1 issued to Serco by the
PCO under the LOGCAP support contract.

                   Table 1. LOGCAP Support Contract Task Orders
                     Task Order Requirement               Task Order No.
          Base Closure Assistance Teams                           18
          Multi-National Corps-Iraq, Cost Analyst Support       12, 17
          Multi-National Force-Iraq, Logistical Planning           8
          Support
          Operations Support                                       2
          Program Management Office Staffing                       1
          Program Management Support and DPD Support         3, 6, 15, 19
          Task Order Competition Support                        11,16
          Training and Exercise Support                   2, 5, 7, 9, 10, 14
          Travel                                                   4

Additional Controls Needed for the LOGCAP Support
Contract
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls.



1
 Task order 13 was skipped in the sequential numbering of the task orders; therefore, only 18 task orders
have been issued.


                                                   2
We identified internal control weaknesses associated with the management of the
LOGCAP support contract. LOGCAP officials did not have adequate internal controls
for managing and administering the LOGCAP support contract. Specifically, LOGCAP
contracting officials did not: communicate effectively and provide guidance to personnel
stationed in Iraq so the base closure assistance team (BCAT) work would be executed
within the scope of the PWS, develop quality assurance surveillance plans (QASPs) for
the LOGCAP support task orders, or provide proper contractor oversight. In addition,
LOGCAP contracting officials did not have controls to mitigate the potential for
organizational conflicts of interests between the support contractor and the non-LOGCAP
contractors and did not have controls in place for notifying non-LOGCAP contractors in
Kuwait that the LOGCAP support contractor may have access to their proprietary
information. For specific results of the weaknesses identified, see Findings A, B, and C
of this report. Implementing recommendations A.2. and C.1. will resolve the identified
weaknesses. We will provide a copy of the report to the senior official responsible for
internal controls in the Department of the Army.

We issued Report No. D-2010-059, “Contingency Contracting: A Framework for
Reform,” on May 14, 2010. The report identified systemic contracting issues related to
the issues discussed in this report. The report also included a “Key Aspects of the
Contracting Process” flowchart, which is a useful tool for contracting officers to assess
the strengths and weaknesses in their contracting approaches and provides real-time
awareness of areas that might be susceptible to fraud and contributors to waste and abuse.
The flowchart should be used by LOGCAP and RICC personnel as they continue to
manage and administer the current and any future LOGCAP support contracts.




                                           3
Finding A. Support Contractor Allowed to
Perform Non-LOGCAP Work
(FOUO) Army officials did not manage and administer the LOGCAP support contract in
accordance with Federal and DoD guidance. Specifically, LOGCAP officials instructed
the LOGCAP support contractor to perform work that was outside the scope of the
LOGCAP support contract. The LOGCAP support contractor provided requirements
development assistance for at least 71 non-LOGCAP contracts or task orders for
requirements valued at approximately $1 billion, according to the LOGCAP DPD for
Kuwait. Further, the PCO did not address:
    x the potential organizational conflicts of interest or
    x the LOGCAP support contractor’s inappropriate access to other contractors’
       proprietary information while supporting the non-LOGCAP contracts.

This occurred because RICC contracting officials2 concluded that the additional work
was within the scope of the LOGCAP support contract,
                                   Further, the PCO did not comply with section 2383,
title 10, United States Code (10 U.S.C. §2383 [2010]) requirements to preclude
organizational conflicts of interest. The LOGCAP DPD in Kuwait did not inform the
PCO of an organizational conflict of interest that the non-LOGCAP work created
between the support contractor and a subcontractor. As a result, RICC officials:
     x did not obtain the cost savings from competing the out of scope work and violated
         the Competition in Contracting Act, 41 U.S.C. §253 (2010);
     x gave the support contractor a potential competitive advantage on the work for
         which it was developing requirements;
     x violated the Federal Acquisition Regulation (FAR) and potentially violated the
         Trade Secrets Act, 18 U.S.C. §1905 (2010) by providing the support contractor
         with other contractors’ proprietary information; and
     x created the potential for additional problems after the Army informs non-
         LOGCAP contractors that their proprietary data was provided to the support
         contractor without their permission or contractual protections.

Out of Scope Work
Army officials instructed Serco, the LOGCAP support contractor, to perform work that
was outside the scope of the LOGCAP support contract. According to the LOGCAP
DPD for Kuwait, Army officials instructed the LOGCAP support contractor to provide
requirements development assistance for at least 71 non-LOGCAP contracts or task
orders for requirements valued at approximately $1 billion. Further, the PCO did not
modify the contract to include the additional requirements or appropriately address




2
 RICC contracting officials included the Principal Assistant Responsible for Contracting, the Deputy
Principal Assistant Responsible for Contracting, and the LOGCAP Contracting Branch Chief.

                                   FOR OFFICIAL USE ONLY
                                            4
potential organizational conflicts of interest with regard to the non-LOGCAP contracts or
the LOGCAP support contractor’s access to other contractors’ proprietary information.
RICC contracting officials issued four task orders for the base year and 3 option years for
LOGCAP DPD support in Kuwait, Iraq, and Afghanistan.

Non-LOGCAP Contract Support
LOGCAP officials instructed Serco to perform work that was outside the scope of the
LOGCAP support contract. In September 2007, the Secretary of the Army visited the
Kuwait contracting office in response to serious problems involving fraud, waste, and
abuse in Southwest Asia and directed the LOGCAP DPD office in Kuwait to develop all
requirements in Kuwait in order to exercise management controls in the contracting
process. As a result, in September 2007, an operations order established an Army
Sustainment Command U.S.-based contracting reachback cell to manage and execute
specific contracts and requirements in order to strengthen Kuwait contracting operations.
The order tasked the LOGCAP Director to provide management and oversight of all
contracts executed by the contracting reachback cell at RICC and of the Combat Service
Support Contract-Kuwait.

The LOGCAP DPD office in Kuwait assumed responsibility for assisting with
developing more than $1 billion in annual requirements after the operations order was
established. These included supply, maintenance, transportation, public works,
information management, training, and services requirements. The Military Surface
Deployment and Distribution Command also used the LOGCAP DPD office in Kuwait to
assist in developing requirements for terminal services for Umm Qasr, Jordan, Qatar, the
United Arab Emirates, Oman, Bahrain, Saudi Arabia, and Pakistan. Personnel in the
LOGCAP DPD office in Kuwait, including LOGCAP support contract employees,
assisted with creating PWSs, QASPs, and independent cost estimates and also facilitated
technical proposal evaluations for both LOGCAP and non-LOGCAP contracts.

According to the LOGCAP DPD for Kuwait, the           . . . LOGCAP support contractor
LOGCAP DPD office in Kuwait was responsible for         employees were supporting at
assisting in requirements development, valued at      least 71 non-LOGCAP contracts
approximately $1.2 billion; however, only $200              or task orders and only 3
million was for LOGCAP requirements. The non-                LOGCAP task orders.
LOGCAP requirements were supported by 12 of 13
LOGCAP support contractor employees in the LOGCAP DPD office in Kuwait; only
1 LOGCAP support contract employee worked full time on LOGCAP requirements.
According to RICC personnel, LOGCAP support contractor employees were supporting
at least 71 non-LOGCAP contracts or task orders and only 3 LOGCAP task orders.

Improper Scope Determination
(FOUO) RICC contracting officials concluded that the additional work performed by the
LOGCAP support contractor in the LOGCAP DPD office in Kuwait was within the scope
of the LOGCAP support contract



                              FOR OFFICIAL USE ONLY
                                       5
(FOUO)




RICC contracting officials stated that they believed that the support to non-LOGCAP
contracts was within the scope of the LOGCAP support contract because, although there
were three LOGCAP IV performance contracts, the LOGCAP “program” encompassed
more than the LOGCAP “contracts.” RICC officials stated that because the LOGCAP
support contract was awarded to support the LOGCAP program, the additional support
was within the scope of the LOGCAP support contract because the mission of the
LOGCAP program had expanded to include similar support to non-LOGCAP contracts.

According to Army Regulation 700-137, “Logistics Civil Augmentation Program
(LOGCAP),” December 1985, the LOGCAP objective is to plan for the use of civilian
contractors to perform selected services in wartime to augment Army forces. Further,
according to the LOGCAP IV acquisition plan, LOGCAP is an initiative by the Army to
plan for contingency operations during peacetime, using contractors to provide logistics
support with reasonable assurance of success and within reasonable cost. Although
RICC officials contended that the LOGCAP program was separate from the LOGCAP
contract, the objective of the LOGCAP program was to plan for the use of contractors.
The Army Regulation required the Army Materiel Command3 to assist in developing and
awarding LOGCAP contracts and did not mention other, non-LOGCAP contracts.
Therefore, support provided by the LOGCAP support contractor should have been solely
associated with the LOGCAP performance contracts. Further, clauses in the LOGCAP
support contract make it clear that officials did not foresee the LOGCAP support
contractor providing support for non-LOGCAP contracts.

The LOGCAP IV acquisition plan stated that the Government required an independent
planning contractor to avoid the real or perceived conflict of having one of the


3
    The Army Sustainment Command is a subordinate command of the Army Materiel Command.

                                  FOR OFFICIAL USE ONLY
                                           6
LOGCAP IV performance contractors do the planning that is considered in developing
any PWS that the LOGCAP IV performance contractors would compete on for task
orders. Further, the LOGCAP support contract solicitation stated that “it is anticipated
that the planning services provided under this solicitation will require access to, and
knowledge of, the proprietary information of the LOGCAP IV performance contractors.”
These statements clearly indicated that RICC intended to use the LOGCAP support
contractor to assist and support the LOGCAP IV performance contractors.

The work supporting non-LOGCAP contracts was outside the scope of the LOGCAP
support contract because the work had not been contemplated or foreseen when RICC
contracting officials initially awarded the contract. In Freund v. United States, 260 U.S.
60, 63, (1922), the U.S. Supreme Court stated that work performed under a contract falls
within the general scope of the contract if it could be “regarded as having been fairly and
reasonably within the contemplation of the parties when the contract was entered into.”
The test employed in determining whether work has been improperly added to a contract
was further stated in American Air Filter Co., 57 U.S. Comp. Gen. 567, 78-1 CPD
para.443 (1978):

               The impact of any modification is in our view to be determined by
               examining whether the alteration is within the scope of the competition
               which was initially conducted. Ordinarily, a modification falls within
               the scope of the procurement provided that it is of a nature which
               potential offerors would have reasonably anticipated under the changes
               clause.

               To determine what potential offerors would have reasonably expected,
               consideration should be given, in our view, to the procurement format
               used, the history of the present and related past procurements, and the
               nature of the supplies or services sought.

The initial task order for LOGCAP DPD support,           . . . only one LOGCAP support
including support in Iraq and Afghanistan, was         contractor employee in Kuwait was
issued in March 2007 and definitized on May 21,          working full time on LOGCAP
2007, for $6.3 million for DPD support. The                         requirements.
PWS stated that the LOGCAP support contractor should support the DPD in Kuwait with
6 personnel: 2 logistics management specialists, 3 cost analysts, and 1 administrative
specialist. RICC personnel exercised Option Year 3 in February 2010, and definitized
DPD support requirements on August 30, 2010, for $23.7 million, an increase of
$17.4 million. As of April 2010, 13 LOGCAP support contractor personnel were
supporting the LOGCAP DPD office in Kuwait. Although we could not determine how
much of the dollar increase was associated with the support of non-LOGCAP contracts,
according to the LOGCAP DPD in Kuwait, only one LOGCAP support contractor
employee in Kuwait was working full time on LOGCAP requirements. Therefore, we
concluded that a part of the $17.4 million increase can be attributed to work supporting
non-LOGCAP contracts.

According to FAR Part 6, “Competition Requirements,” which implements the
Competition in Contracting Act, contracting officers must promote and provide for full


                                                7
and open competition when awarding out-of-scope modifications to existing Government
contracts. A justification and approval for other than full and open competition must be
issued for every contract action awarded without full and open competition and it must
contain a reference to one of the seven authorities under which the contract was awarded.
Therefore, the PCO should have competed the additional requirements or issued an
appropriate justification and approval document when the support provided by the
LOGCAP support contractor significantly increased.

It is clear that the LOGCAP support contract was intended to provide support for the
LOGCAP IV performance contracts. When Army officials significantly expanded the
mission of the LOGCAP DPD office in Kuwait to support non-LOGCAP contracts and
used LOGCAP support contractor employees to execute the support, they circumvented
the Competition in Contracting Act by not properly competing the additional
requirements.

Added Work Created Conflict of Interest
The PCO did not modify the LOGCAP support contract to include the additional
requirements or appropriately address potential organizational conflicts of interest or
LOGCAP support contractor employee access to proprietary information. The Army
Sustainment Command began using the LOGCAP DPD office in Kuwait and LOGCAP
support contractors to support non-LOGCAP contracts in October 2007; however, the
PCO never modified the LOGCAP support contract to include these additional
requirements. The PWS in the basic contract stated that the requirement for LOGCAP
DPD support would be stated and updated separately on an annual basis. However, the
PCO exercised 3 option years on the LOGCAP support contract after Serco began
supporting non-LOGCAP requirements and did not reference the additional requirements
in the PWSs for those years.

Organizational Conflicts of Interest
The PCO did not appropriately address potential organizational conflicts with regard to
the added work. Further, the PCO did not comply with 10 U.S.C. §2383 (2010)
requirements to preclude organizational conflicts of interest. Consistent with
FAR Subpart 9.5, “Organizational and Consultant Conflicts of Interest,”
10 U.S.C. §2383 (2010) allows agencies to enter into a contract for the performance of
acquisition functions closely associated with inherently governmental functions only if
the contracting officer addresses any potential organizational conflict of interest of the
contractor in the performance of the functions under the contract. FAR 9.504 requires
contracting officers to analyze planned acquisitions in order to identify and evaluate
potential organizational conflicts of interest, and avoid, neutralize, or mitigate significant
potential conflicts. An organizational conflict of interest may result when factors create
an actual or potential conflict of interest on a contract or when the nature of the work to
be performed on the contract creates an actual or potential conflict of interest on a future
acquisition.

According to FAR 9.505-2, when a contractor is used to assist in preparing performance
work statements, the contractor might often be in a position to favor its own products or


                                              8
capabilities, creating a conflict of interest. In order to mitigate this risk, the PCO
incorporated a clause into the LOGCAP support contract prohibiting the contractor from
performing work under any of the LOGCAP IV performance contracts as a prime
contractor, subsidiary, subcontractor, vendor, supplier, joint venture, or in any other
business capacity that may result in an organizational conflict of interest. However, the
PCO did not modify the support contract to prohibit the LOGCAP support contractor
                                         from performing work under the non-LOGCAP
   . . . the PCO did not modify the      contracts or task orders once the Army began using
   support contract to prohibit the      the LOGCAP support contractor to assist in
     LOGCAP support contractor           developing PWSs for non-LOGCAP requirements.
  from performing work under the         RICC contracting officials stated that they believed
  non-LOGCAP contracts or task           that any potential conflicts of interest with regard to
               orders . . .              the non-LOGCAP contracts were mitigated by the
                                         existing LOGCAP support contract and the
LOGCAP support contractor’s existing organizational conflict of interest plan.

Clause H-4, “Business Integrity and Organizational Conflict of Interest,” in the LOGCAP
support contract states:

                It is anticipated that the planning services required… will require
                access to, and knowledge of, the proprietary information of the
                LOGCAP IV performance contractors’ non-public government
                information, pre-solicitation information, and information which would
                impair the planning/support contractors’ objectivity.

The clause goes on to state that “the planning contractor cannot have any actual or
pending financial interest in the LOGCAP IV performance contractors for the period of
this contract” and prohibits the planning contractor from performing under any of the
LOGCAP IV performance contracts. Although the contract states that “the intent of the
provision is to prevent . . . any actual or perceived personal or organizational conflict of
interest that might arise in the performance of this contract,” the clause specified conflicts
relating only to the LOGCAP performance contracts.

RICC contracting officials claimed that the LOGCAP support contractor’s organizational
conflict of interest plan addressed potential conflicts with regard to the non-LOGCAP
contracts. The LOGCAP support contractor’s organizational conflict of interest plan
submitted with the proposal identified a type of conflict in which information made
available to a company could be used in subsequent procurements to the competitive
advantage of that company. For example, a company drafts a specification under the first
contract and then bids on a subsequent opportunity in which that same specification is the
subject of the procurement. However, the plan stated that this type of conflict did not
exist; therefore, the plan did not address any mitigating factors. In a February 10, 2009,
revised organizational conflict of interest plan, the LOGCAP support contractor provided
a methodology for preventing conflicts of interest between the LOGCAP support
contractor and the LOGCAP IV performance contractors. However, the plan did not
mention non-LOGCAP contractors and did not specify how conflicts would be mitigated
in support of the non-LOGCAP contractors.


                                                 9
In February 2008, the PCO issued a letter to the LOGCAP support contractor stating that
if there was a possibility that the LOGCAP support contractor would bid on a
requirement that it had been tasked to support, even if the requirement was not a
LOGCAP requirement, then the LOGCAP support contractor must inform the PCO of the
potential conflict. When the LOGCAP support contractor identified a potential conflict,
the PCO required the LOGCAP support contractor to mitigate the risks presented by the
conflict, including the fact that the LOGCAP support contractor may have received pre-
procurement information, influenced the way the requirement was developed, or helped
develop documents that could be used in competitive evaluation. Additionally, the letter
stated that if the LOGCAP support contractor was tasked to support a requirement or
acquisition for which a potential bidder was a LOGCAP support contract subcontractor,
partner, or direct competitor, the PCO must immediately be informed of the appearance
of a conflict. Although the letter attempted to address any potential organizational
conflicts of interest, the PCO did not contractually mitigate the organizational conflicts of
interest by prohibiting the LOGCAP support contractor from competing on the non-
LOGCAP requirements.

Military Professional Resources Incorporated (MPRI), a subcontractor on the LOGCAP
support contract with Serco, had MPRI employees working in the LOGCAP DPD office
in Kuwait when Serco began assisting in developing PWSs for non-LOGCAP contracts.
MPRI was also part of the Combat Support
Associates team performing work on the Combat              . . . MPRI may have been in a
Service Support Contract-Kuwait, a non-LOGCAP                  position to favor its own
contract that Serco provided contract support to as        products or capabilities when
part of its work under the LOGCAP support                  developing performance work
contract. This created a potential conflict of                      statements . . .
interest because, as a subcontractor for both the
LOGCAP support contract and a non-LOGCAP performance contract, MPRI may have
been in a position to favor its own products or capabilities when developing performance
work statements for requirements that it may perform. A LOGCAP support contractor
employee in the LOGCAP DPD office in Kuwait identified the potential conflict of
interest and reported it to the LOGCAP DPD in Kuwait. In response, the LOGCAP
support contractor discontinued the use of MPRI as a subcontractor in the LOGCAP DPD
office in Kuwait and converted all of the MPRI employees to Serco employees.
However, the LOGCAP DPD in Kuwait stated that he did not inform the PCO of the
situation, and the PCOs did not recall hearing about the potential conflict of interest with
MPRI. Consequently, the LOGCAP support contract was never modified to prevent this
from occurring in the future.

Support Contractor Access to Proprietary Information
The PCO did not appropriately address LOGCAP support contractor employee access to
proprietary information with regard to the non-LOGCAP contracts. FAR 9.505-4 states
that when a contractor requires proprietary information from other contractors to perform
a Government contract, the contractor may gain an unfair advantage unless restrictions
are imposed. These restrictions protect the information and encourage companies to
provide it only when necessary for contract performance.


                                            10
FAR 9.505-4 requires that a contractor that gains access to other companies’ proprietary
information in performing advisory and assistance services for the Government must
enter into an agreement with the other companies to protect their information from
unauthorized use or disclosure and refrain from using the information for any purpose
other than that for which it was furnished. Further, the PCO should obtain copies of these
agreements and ensure that they are properly executed. The LOGCAP support contract
required the support contractor to enter into agreements with the LOGCAP IV
performance contractors to ensure proper access to, and protection of, the performance
contractors’ proprietary information.

In addition to obtaining access to the LOGCAP performance contractors’ proprietary
information, the LOGCAP support contractor employees were assisting in facilitating
technical proposal evaluations for the non-LOGCAP contracts as part of the support
provided to the LOGCAP DPD office in Kuwait. According to LOGCAP support
contractor employees, this assistance sometimes included receiving and securing
technical proposals that may have contained proprietary information. LOGCAP support
contractor employees signed personal nondisclosure agreements for some of the non-
LOGCAP requirements that they were involved with; however, the non-LOGCAP
contractors did not sign the nondisclosure agreements. Additionally, the requests for
proposals for the non-LOGCAP requirements did not inform potential offerors that the
LOGCAP support contractor may have had access to their proprietary information.
Therefore, the potential offerors for the non-LOGCAP contracts were not aware that the
LOGCAP support contractor may have had access to their proprietary information. In
some cases, the contracting officers at RICC were not aware that LOGCAP support
contractor employees had access to the technical proposals and did not execute any
agreements between the LOGCAP support contractor and the non-LOGCAP contractors.

The Procurement Integrity Act, 41 U.S.C. §423 (2010), prohibits Federal employees from
knowingly disclosing contractor bid or proposal information before the award of a
Federal agency procurement contract to which the information relates. The Trade Secrets
Act, 18 U.S.C. §1905 (2010), provides financial penalties and imprisonment for the
unauthorized disclosure of trade secrets. Under some circumstances, proprietary data
may be deemed a trade secret by the company that developed the data. Army officials
may have violated the Trade Secrets Act by providing the technical proposals for non-
LOGCAP requirements to LOGCAP support contractor employees without the
contractors’ knowledge or consent.

It is imperative that the Government implement controls to prevent this from happening.
Based on interviews with LOGCAP support contractor and RICC personnel, there
appeared to be confusion about the duties that the LOGCAP support contractor was
actually performing. In order to meet FAR requirements, RICC contracting officials
should add a clause in all requests for proposals that Serco provides support for that
indicates that the LOGCAP support contractor may have access to proprietary
information submitted in response to the request for proposal.




                                           11
Conclusion
The PCO did not properly compete non-LOGCAP requirements executed under the
LOGCAP support contract and may not have paid fair and reasonable prices for the
additional work. The Competition in Contracting Act requires that agencies allow all
sources capable of satisfying the Government’s need to compete for a contract award.
Congress implemented the Competition in Contracting Act to increase the number of
competitors for Government acquisitions and to increase cost savings through lower,
more competitive pricing. Additionally, a competitive environment encourages
competitors to develop and institute innovative and cost-effective methods of performing
the work. However, by not competing these requirements, Army officials had no
assurance that they obtained fair and reasonable prices and that the LOGCAP support
contractor provided the best value to satisfy the Government’s requirements.

Additionally, Army officials allowed the LOGCAP support contractor to assist in
developing requirements that they could have potentially competed for. Contractors are
prohibited from supplying services acquired on the basis of performance work statements
resulting from their services in order to avoid the appearance of bias. RICC officials
effectively implemented controls to prevent this from happening to the LOGCAP
performance contracts by prohibiting the support contractor from providing services for
the LOGCAP performance contracts. However, with the expansion of LOGCAP support
                                        contractor services to non-LOGCAP contracts, the
    . . . Army officials improperly     PCO should have included similar measures in the
      provided LOGCAP support           LOGCAP support contract to avoid either real or
      contractor employees with         perceived conflicts of interest relating to the non-
          contractor proprietary        LOGCAP contracts.
         information without the
     knowledge or consent of the        Finally, Army officials improperly provided
      non-LOGCAP contractors.           LOGCAP support contractor employees with
                                        contractor proprietary information without the
knowledge or consent of the non-LOGCAP contractors. Although the PCO executed
nondisclosure agreements between the LOGCAP support contractor and the LOGCAP
performance contractors, the PCO did not implement any measures to protect the non-
LOGCAP contractors’ data. RICC contracting officials should include appropriate
language in all of the requests for proposals supported by the LOGCAP support
contractor. RICC contracting officials should also advise potential bidders that a third-
party contractor may have access to any proposals submitted in response to the request in
order to protect proprietary information and to eliminate the risk of the LOGCAP support
contractor gaining an unfair competitive advantage through the misuse of proprietary
information.

According to Government Accountability Office Report 10-693, “Contractor Integrity:
Stronger Safeguards Needed for Contractor Access to Sensitive Information,”
September 10, 2010, protection of sensitive information is critical because unauthorized
disclosure can erode the integrity of Government operations and lead to use of that
information for private gain, potentially harming important interests. In the report, the
Government Accountability Office identified six effective management control practices


                                            12
to help prevent contractor disclosure and misuse of sensitive information. The controls
include:
    x training or informing employees of their obligations to maintain confidentiality
        and not misuse sensitive information,
    x obtaining written consent from the agency to disclose sensitive information,
    x passing sensitive information provisions to subcontractors,
    x executing a nondisclosure agreement for each employee and subcontractor as a
        condition of access to sensitive information,
    x promptly notifying key agency officials of the misuse or unauthorized disclosure
        of sensitive information, and
    x being informed of the consequences for violations.

To safeguard against the misuse or unauthorized disclosure of potentially sensitive
information, the contracting officer should incorporate measures into the LOGCAP
support contract to implement these control practices.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Logistics Civil Augmentation Program support contract
procuring contracting officer:

       a. Omit non-Logistics Civil Augmentation Program contract support in the
Option Year Four Deputy Program Director requirements on the Logistics Civil
Augmentation Program support contract and prepare a separate statement of work for the
non-Logistics Civil Augmentation Program contract support and compete those
requirements.

       b. Modify the Logistics Civil Augmentation Program support contract to prohibit
the Logistics Civil Augmentation Program support contractor from performing work on
any contract resulting from its services.

       c. Incorporate measures into the Logistics Civil Augmentation Program support
contract to implement the six effective management control practices identified in
Government Accountability Office Report 10-693, “Contractor Integrity: Stronger
Safeguards Needed for Contractor Access to Sensitive Information,” September 10, 2010.

Management Comments Required
We granted the U.S. Army Materiel Command an extension to the date by which we
needed to receive comments. Despite the extension, U.S. Army Materiel Command
provided comments too late to be incorporated into the final report. Therefore, if the U.S.
Army Materiel Command does not submit additional comments, we will consider those
comments as management’s response to the final report.

A.2. We recommend that Rock Island Contracting Center non-Logistics Civil
Augmentation Program contracting officers include appropriate language in requests for


                                           13
proposals supported by the Logistics Civil Augmentation Program support contractor that
advises potential bidders that a third-party contractor may have access to any proposals
submitted in response to the request.

Management Comments Required
We granted the U.S. Army Materiel Command an extension to the date by which we
needed to receive comments. Despite the extension, U.S. Army Materiel Command
provided comments too late to be incorporated into the final report. Therefore, if the U.S.
Army Materiel Command does not submit additional comments, we will consider those
comments as management’s response to the final report.

A.3. We recommend that the Assistant Secretary of the Army for Acquisition,
Logistics, and Technology perform an independent review to:

       a. Identify all non-Logistics Civil Augmentation Program contractors’
proprietary data accessed by the Logistics Civil Augmentation Program support
contractor.

       b. Notify all non-Logistics Civil Augmentation Program contractors that the
Logistics Civil Augmentation Program support contractor had access to their
proprietary data and ask them to identify any adverse consequences.

Assistant Secretary of the Army for Acquisition, Logistics, and
Technology Comments
The Assistant Secretary of the Army for Acquisition, Logistics, and Technology
(ASA[ALT]) agreed. The Director, Operational Contracting Support and Policy,
responded on behalf of the ASA(ALT), and stated that he will request that the Army
Materiel Command prepare and implement a corrective action plan for RICC. The
Director, Operational Contracting Support and Policy, stated that, if necessary, the
ASA(ALT) will instruct RICC to identify all non-LOGCAP contractors’ proprietary data
accessed by the LOGCAP support contractor, notify all non-LOGCAP contractors that
have been affected, and identify any adverse consequences.

Our Response
The ASA(ALT) comments are partially responsive. However, the ASA(ALT) should
inform us whether the corrective action plan appropriately addressed our
recommendation or if additional action was taken by the ASA(ALT).

       c. Review the actions of the Logistics Civil Augmentation Program support
procuring contracting officer, the non-Logistics Civil Augmentation Program
procuring contracting officers, and Logistics Civil Augmentation Program
managers that created the organizational conflicts of interest and other problems
(Finding A) and that sponsored the out of scope base closure assistance teams’ work
for Multi-National Corps-Iraq (Finding B). Initiate, as appropriate, any
administrative action and training required.



                                           14
Assistant Secretary of the Army for Acquisition, Logistics, and
Technology Comments
The ASA(ALT) agreed. The Director, Operational Contracting Support and Policy,
responded on behalf of the ASA(ALT), and stated that he will request that the Army
Materiel Command provide a corrective action plan that requires RICC to review the
contract actions of the respective contracting officers and determine whether
administrative action and training will be required. Additionally, the Director,
Operational Contracting Support and Policy, stated that the ASA(ALT) will conduct a
program management review of RICC contracting processes in June 2011, to include the
status of the corrective action plans put in place as a result of our report.

Our Response
The ASA(ALT) comments are responsive, and no further comments are required.




                                        15
Finding B. Task Order for Multi-National
Corps–Iraq Outside the Scope of the
Contract
The PCO issued a $9.3 million task order in October 2009 for BCATs for the Multi-
National Corps-Iraq (MNC-I)4 that was outside the scope of the LOGCAP support
contract. The purpose of the BCAT work was to directly support MNC-I. However, the
RICC and LOGCAP officials concluded that the BCAT task order could be executed to
support the LOGCAP DPD in Iraq and substituted the words “LOGCAP” for “MNC-I” in
the task order statement of work. In addition, the PCO did not restrict contractor
performance to operations that supported the LOGCAP DPD in Iraq and allowed the
contractor to provide services for MNC-I that extended beyond the scope of the
LOGCAP support contract. As a result, the Army did not get the cost benefits from
competing the requirement and violated the Competition in Contracting Act.
Subsequently, United States Forces-Iraq (USF-I) officials determined that the LOGCAP
support contract was not the most effective contracting vehicle for supporting the follow-
on BCAT requirement and issued a new solicitation in June 2010.

Base Closure Assistance Teams Task Order Issuance
The Commander, Multi-National Force-Iraq, issued guidance on April 20, 2009, for the
closure of U.S. bases in Iraq. The guidance established a theater-wide assistance team
that would provide base closure support to commanders at every level. The
memorandum stated that MNC-I was responsible for establishing the teams, and in
June 2009, MNC-I attempted to staff the BCATs with military personnel. However, due
to shortages of Service members with the correct skills, MNC-I ultimately acquired
contractor personnel to execute the BCAT requirement under the LOGCAP support
contract. USF-I officials could not identify why the BCAT requirement was put on the
LOGCAP contract because of employee turnover and staff rotations. However, RICC
officials drafted a memorandum for the record in September 2009 stating that there was a
LOGCAP requirement for BCATs and that the BCATS would be under the control of the
LOGCAP DPD in Iraq. In October 2009, RICC issued task order 18, valued at
$9.3 million, for the LOGCAP support contractor to provide BCATs for 1 year with the
option to issue follow-on task orders. The task order represented more than 20 percent of
the LOGCAP support contract’s yearly maximum value of $45 million.

The BCATs were used to support the MNC-I base closure initiative and were not a
LOGCAP support contract requirement. MNC-I generated the requirement and fully
funded the task order through a Military Interdepartmental Purchase Request. The BCAT
requirement was for six teams of five contractor personnel to support MNC-I by
providing technical expertise to facilitate, advise, and assist commanders in the timely



4
  In January 2010, five major commands in Iraq, to include MNC-I and Multi-National Force-Iraq, merged
to become the unified command USF-I. As result, the BCAT mission was absorbed by USF-I.


                                                 16
execution of base closures. MNC-I maintained operational control over BCATs and
directed BCATs to perform work based on their needs.

Multi-National Corps-Iraq Base Closure Assistance
Teams Requirement Outside the Scope of the LOGCAP
Support Contract
When the LOGCAP support contract was awarded to Serco in February 2007, BCAT
services were not required in Iraq, and RICC contracting officials did not consider the
MNC-I BCAT requirement when they drafted and awarded the LOGCAP support
contract. When MNC-I expressed a need for BCAT support in April 2009, the intent was
for the work of the BCATs to expand beyond LOGCAP supported bases, to include all
U.S. base closures in Iraq. However, RICC and LOGCAP officials tried to limit BCATs
to provide services for only LOGCAP-specific base closure requirements.

BCATs were not identified or described in the LOGCAP acquisition plan, the
solicitation, the basic contract, or any contract
                                                        BCATs were not identified or
modification. Specifically, the scope of the work
                                                         described in the LOGCAP
in the solicitation did not include a provision for
                                                             acquisition plan, the
teams to advise and assist military commanders in
                                                       solicitation, the basic contract,
Iraq on base closures. According to Government
                                                        or any contract modification.
Accountability Office Decision B-402349,
“Dyncorp International LLC,” March 15, 2010, a task order is outside of the scope of the
original contract if:
    x there is a material difference between the task order and the contract, and
    x the offerors could not have reasonably anticipated the nature of the work in the
        task order.

Program Officials Attempted to Establish BCAT as a LOGCAP
Requirement
The purpose of the BCAT work was to directly support MNC-I. However, the RICC and
LOGCAP officials concluded that the BCAT task order could be executed to support the
LOGCAP DPD in Iraq. LOGCAP officials determined that the BCATs could support
LOGCAP drawdown operations and assist in planning for the movement or repositioning
of LOGCAP assets and personnel from various bases. RICC and LOGCAP officials
determined that the BCATs would be managed by the LOGCAP DPD in Iraq and the
BCATs would directly assist the LOGCAP DPD in the drawdown effort. RICC officials
determined that the base closure advisory services must be restricted to bases supported
by LOGCAP to remain within scope of the LOGCAP support contract. However,
MNC-I never intended for the BCATs to be restricted to LOGCAP drawdown operations.

MNC-I officials originally developed the PWS for the BCAT task order and provided it
to the LOGCAP support PCO in August 2009. The PWS stated the principal purpose of
the BCAT was to provide technical expertise to facilitate, advise, and assist MNC-I base
commanders in the timely execution of the required procedures associated with base
closure. The PWS defined BCATs as an MNC-I requirement and did not include any


                                          17
mention of LOGCAP or the LOGCAP DPD in Iraq. Furthermore, MNC-I officials
confirmed that it was never their intent to make BCAT part of LOGCAP.

RICC officials revised a draft PWS in October 2009 by replacing the term “MNC-I” with
“LOGCAP,” but made no other material changes. For example, the original PWS stated,
“the contractor shall facilitate and provide guidance and expertise to MNC-I and base
commanders in order to successfully close or return coalition bases,” while the new PWS
written by RICC officials stated, “the contractor shall facilitate and provide guidance and
expertise to the LOGCAP Iraq Deputy Program
Director in order to successfully close or return         RICC officials revised a draft
coalition bases.” RICC officials revised a draft              PWS in October 2009 by
PWS in order to clarify that the BCAT task order           replacing the term “MNC-I”
would be executed as a LOGCAP requirement and             with “LOGCAP,” but made no
intended for the contractor to provide base closure           other material changes.
advisory services to the LOGCAP DPD in Iraq to
support the LOGCAP drawdown, not to support MNC-I base closure requirements.
However, the PCO executed the task order as the initial PWS intended, which was to
directly support MNC-I. The PCO did not restrict BCATs to work only in direct support
of LOGCAP, and BCATs directly supporting MNC-I became common practice.
Additionally, both the original and the revised PWS stated that BCATs should:
    x provide technical expertise to facilitate, advise, and assist military leaders in the
        timely execution of the required procedures associated with base closure;
    x periodically assess the progress of the base commander’s closure plan; and
    x review and recommend changes to the theater’s base closure process to ensure
        that the systems support the theater and base mission.

Although these were not LOGCAP-specific tasks, RICC officials revised the PWS in an
attempt to restrict the overall task order performance to LOGCAP. Therefore, LOGCAP
support contractor personnel in Iraq performed work beyond the scope of the LOGCAP
support contract and the revised BCAT PWS when they provided direct support to
MNC-I.

RICC and LOGCAP Intentions for BCATs
The LOGCAP support contract solicitation required the contractor to provide full time
logistics management specialists as well as cost and pricing analysts. The support the
contractor provided to the LOGCAP DPD in Iraq was for LOGCAP operations. For
example, one support contract cost analyst in Iraq was tasked with determining the cost-
per-person of administering each LOGCAP-operated dining facility at Camp Victory to
identify efficiencies and lower LOGCAP-operated dining facility costs.

LOGCAP responsibilities included providing food services, sanitation, laundry, power
generation, and facilities management for United States Forces. The LOGCAP services
had to be discontinued or reduced as bases in Iraq were closed, transferred to the
Government of Iraq, or downsized as part of the United States withdrawal. For example,
when a base in Iraq was closed, the dining facilities that were operated by LOGCAP had
to be closed as well. If the BCATs were assisting with closing the dining facility, the


                                           18
BCATs were directly supporting the LOGCAP DPD in Iraq. However, the work of the
BCATs went beyond LOGCAP support because it included providing inventories, site
surveys, and transportation planning for MNC-I, which was not the LOGCAP DPD’s
responsibility and outside the scope of the LOGCAP support contract. For example, one
BCAT assisted in a review of contractor-managed, Government-owned inventory at an
Abu Ghraib warehouse. The Abu Ghraib warehouse was
not a LOGCAP-supported property. The funding,                MNC-I assigned and
maintenance, and management of the warehouse was           directed BCAT work, not
done through Iraqi Security Forces. The BCAT was told         the LOGCAP DPD.
by MNC-I that it required base closure support at Abu
Ghraib, and MNC-I officials then coordinated a BCAT site visit. MNC-I personnel
assigned and directed BCAT work, not the LOGCAP DPD. In addition, the LOGCAP
DPD was not notified by MNC-I personnel that they would be using the BCAT at Abu
Ghraib. As a result, the LOGCAP support contractor provided support services to
MNC-I that were outside the scope of supporting the LOGCAP DPD in Iraq.

MNC-I Intentions for BCATs
MNC-I intended for the BCAT support to expand beyond LOGCAP operations and
included supporting base closure activities on all U.S. bases in Iraq, including bases not
supported by LOGCAP. The BCAT requirement intended for the contractor to assist in
base closures in accordance with the MNC-I base closure task list. The task list
                                        contained more than 80 different tasks that needed
    MNC-I intended for the BCAT         to be executed to successfully close bases. Some
      support to expand beyond          of these tasks, such as coordination with the
       LOGCAP operations and            contract administrators and coordination with the
  included supporting base closure      contractors performing work on the base, could
     activities on all U.S. bases in    have supported LOGCAP if LOGCAP contractors
       Iraq, including bases not        were located on that specific base. However,
        supported by LOGCAP.            other services, such as real estate and deed
                                        matters, environmental surveys, and the close-out
of non-LOGCAP contracts, were outside the scope of LOGCAP DPD support. For
example, for real estate and deed matters, the LOGCAP support contractor assisted
MNC-I in determining who owned the land the U.S. bases were located on before
Operation Iraqi Freedom. This included assisting with the transfer of land held by the
United States back to the Iraqi owners. Additionally, the LOGCAP support contractor
support of non-LOGCAP contracts included providing advice on closing out contracts
being executed by the Joint Contracting Command-Iraq and had no association with the
LOGCAP DPD.

Services that did not directly support the LOGCAP DPD in Iraq were not related to
LOGCAP operations and were not requirements that potential offerors would have
anticipated under the solicitation for the LOGCAP support contract. The Army should
not have purchased services that directly supported MNC-I and the military commanders
under the LOGCAP support contract since those services extended beyond the scope of
LOGCAP operations.



                                           19
Procuring Contracting Officer Did Not Restrict Base
Closure Assistance Teams’ Operations
The PCO should have identified that the work the LOGCAP support contractor
performed was not supporting the LOGCAP DPD in Iraq and taken action to stop the
LOGCAP support contractor from performing work that supported the MNC-I BCAT
requirements. However, the PCO did not restrict contractor operations to only those that
supported the LOGCAP DPD in Iraq and allowed the contractor to provide services for
MNC-I that extended beyond the scope of the LOGCAP support contract. The PCO
executed the BCAT task order in accordance with the original intent of the MNC-I
requirement. MNC-I maintained operational control of the BCATs and directed their
day-to-day operations. Furthermore, the support contractor provided BCAT work
products directly to MNC-I officials, and the LOGCAP DPD did not generally receive
the LOGCAP support contractor’s work products. The LOGCAP support contractor
provided multiple reports to the LOGCAP support contract PCO that identified work
performed beyond support of LOGCAP. One report stated that weekly support included
communicating BCAT status and feedback with MNC-I, developing and socializing team
reassignments to meet modified MNC-I theater-wide coverage requirements, and
developing standard operating procedures to meet MNC-I requests.

United States Forces-Iraq to Issue New Base Closure
Contract
USF-I officials determined that the LOGCAP support contract was not the most effective
contracting vehicle for satisfying the follow-on BCAT requirements. USF-I and RICC
officials disagreed on the use of BCATs in Iraq. RICC officials intended to limit BCAT
support to the LOGCAP DPD in Iraq; whereas USF-I officials required BCATs to
support the drawdown of United States Forces in Iraq. USF-I officials determined that
BCATs were not in direct support of the LOGCAP DPD and should be under the
direction of USF-I. Therefore, the LOGCAP support contract PCO should not continue
to use the LOGCAP support contract to fulfill BCAT requirements or exercise the next
option year for BCATs. USF-I officials confirmed that the Army Contracting Command
expects to issue a new contract in late 2010 that includes the BCAT requirement. RICC
officials issued the solicitation for awarding the BCAT requirement in June 2010 and
included requiring the contractor to facilitate and provide guidance and expertise to
USF-I in order to successfully close or return U.S. bases back to the Government of Iraq.
Under the new contract, USF-I officials will have operational control of BCATs, and
LOGCAP will no longer be involved in acquiring BCAT services.

Conclusion
RICC officials did not properly compete the MNC-I BCAT requirements, valued
at $9.3 million. The MNC-I requirement for base closure advisory services was not
considered when RICC officials awarded the LOGCAP support contract. Although the
PWS was written by RICC officials for BCATs to support the LOGCAP DPD in Iraq,
the LOGCAP support contractor was performing BCAT tasks directly to support MNC-I,
and MNC-I never intended for the BCATs to be restricted to performing work only on



                                          20
LOGCAP drawdown operations. Additionally, MNC-I directed BCATs to perform work,
and the LOGCAP DPD in Iraq was often not informed by MNC-I of the work being
assigned. Furthermore, the PCO was aware that
BCATs were supporting MNC-I, not LOGCAP, but               The MNC-I requirement for
did not take action to restrict the work being            base closure advisory services
performed so that it was within the scope of the         was  not considered when RICC
LOGCAP support contract. Ultimately, RICC                officials awarded the LOGCAP
officials violated the Competition in Contracting                support contract.
Act by directing the contractor to provide 30 additional personnel under the LOGCAP
support contract to perform work that was outside the scope of the contract, and the Army
did not get the cost benefits from competing the BCAT requirement.

Recommendation
B. We recommend that the Logistics Civil Augmentation Program support contract
procuring contracting officer not exercise the next option year for Base Closure
Assistance Teams.

Management Comments Required
We granted the U.S. Army Materiel Command an extension to the date by which we
needed to receive comments. Despite the extension, U.S. Army Materiel Command
provided comments too late to be incorporated into the final report. Therefore, if the U.S.
Army Materiel Command does not submit additional comments, we will consider those
comments as management’s response to the final report.




                                            21
Finding C. Oversight Improvements Needed
for the LOGCAP Support Contract
The PCO did not provide adequate oversight of the LOGCAP support contract.
Furthermore, the CORs in-theater did not adequately monitor the contractor’s
performance. This occurred because the PCO did not develop or receive a requirements-
based QASP to help ensure contractor performance could be properly measured in
accordance with Federal guidance. Additionally, the PCO did not effectively
communicate with CORs for the LOGCAP support contract. As a result, the PCO had no
assurance that the Army received services in accordance with contract requirements. In
addition, the contractor may have received unjustified performance-based fees on cost-
plus-award-fee task orders.

Criteria for Contract Oversight
FAR 1.602-2 “Responsibilities,” states that the PCO is responsible for performing all
necessary actions for effective contracting, ensuring compliance with the terms of the
contract, and safeguarding the interests of the United States in its contractual
relationships.

FAR Subpart 46.4, “Government Contract Quality Assurance,” states that QASPs should
be prepared in coordination with the PWS. Additionally, QASPs should identify all work
requiring surveillance and the type of surveillance. The surveillance can be performed at
any time or location deemed necessary to ensure that services conform to contract
requirements.

The Defense Federal Acquisition Regulation Supplement, Section 201.602-2,
“Procedures, Guidance, and Information,” states that a COR assists in the technical
monitoring or administration of a contract.

Lack of a Requirements-Based Quality Assurance
Surveillance Plan
The LOGCAP support PCO did not develop requirements-specific QASPs for each task
order. Instead, the PCO developed one QASP that did not provide metrics to evaluate the
contractor. The QASP was intended to assist the PCO and CORs in evaluating the
technical performance of the contractor. The QASP stated that the PCO had the ultimate
responsibility for determining the adequacy of the contractor’s performance. The QASP
also stated that the COR was responsible for providing detailed technical oversight of the
contractor’s performance and for reporting findings to the PCO in a timely manner.
Additionally, the CORs were responsible for submitting monthly evaluation reports to the
PCO to use to conduct interim performance reviews and to provide relevant feedback to
the contractor.

According to the QASP, the award fee evaluation board would meet semiannually to
recommend performance-based award fees that the contractor had earned. The award fee
evaluation board members would rely on the CORs monthly evaluation reports, informal


                                           22
contractor feedback, and final evaluations when determining the contractor’s
performance-based award fee for the rating period.

However, the QASP for the basic contract did not include surveillance requirements for
any of the contractor tasks outlined in the basic PWS. For example, the PWS for the
basic contract required the LOGCAP support contractor to provide support personnel for
LOGCAP command post exercises, field training exercises, and other exercises. Exercise
support was referenced in the QASP; however, it merely re-stated the PWS requirement
and did not identify all work requiring surveillance, or the type of surveillance, with
metrics to assess the contractor’s performance.

Vague Roles and Responsibilities
The QASP for the basic contract contained general PCO, COR, and administrative
contracting officer roles and responsibilities; however, the roles were not task-specific
and were too general to provide for effective oversight of the services the LOGCAP
support contractor performed. For example, COR duties included providing detailed
technical oversight of the services performed by the contractor and reporting findings to
                                        the PCO in a timely manner. This vague
      The CORs did not receive          description of COR duties did not outline the
    adequate guidance on how to         contractor tasks that would require “detailed
    provide contractor oversight,       technical oversight” by the COR. The CORs did
     and how to report oversight        not receive adequate guidance on how to provide
         findings to the PCO.           contractor oversight and how to report oversight
findings to the PCO. Additionally, the CORs monthly report template provided as an
attachment to the QASP did not contain metrics and did not specify the CORs methods of
surveillance. For example, the COR was required to discuss whether contractor
personnel demonstrated that they had adequate skills to perform job duties; however, the
QASP did not include a description of adequate skill sets for duties the contractor was
responsible to perform. Additionally, the QASP did not describe how contractor
personnel should demonstrate their skills for the COR to evaluate. The QASP was not
task-order specific and did not provide the CORs enough guidance on how to monitor
quality assurance when overseeing the contractor.

No Specific QASP for DPD and Program Support
The QASP for the basic contract did not adequately describe the work requiring
surveillance for task order 19 issued for DPD and program support. LOGCAP DPDs had
evolving requirements for the life of the LOGCAP support contract and made numerous
revisions to the LOGCAP DPD support section of the PWS. The PCO issued task
order 19, exercising the third option year for DPD and program support, that more clearly
defined requirements than in the base year and the first 2 option years of the support
contract. The task order 19 PWS clearly defined the contractor roles and responsibilities
and the support that the contractor was expected to provide. However, the PCO did not
update the LOGCAP support contract QASP to reflect the requirements changes. For




                                           23
example, task order 19 included forward operator support,5 which was not a requirement
during the base year or the first 2 option years. The QASP did not address forward
operator support or the specific tasks that the COR should monitor to identify whether the
contractor was completing the work associated with forward operator support.

As the LOGCAP support contract requirements became more defined, the PCO should
have updated the QASP to adequately document the oversight techniques that the CORs
should use to provide measurable results. For example, for forward operator support, the
PCO should have updated the QASP to include methods for the COR to evaluate how
well the LOGCAP support contractor was supporting combatant commanders.

No Specific QASP for BCAT
The QASP for the basic contract did not address the LOGCAP support contractor
services provided on task order 18 for BCATs in Iraq. The PWS for task order 18
included several contractor functions that were not addressed in the basic contract
including property analysts and transportation specialists to support base closures. The
QASP did not address the type or amount of oversight required because those job
functions were not in the basic contract. Task order 18
                                                                Task order 18 did not
did not identify measures of success or failure for the
                                                                 identify measures of
LOGCAP support contractor’s performance supporting
                                                               success or failure for the
base closures. Therefore, the COR could not provide
                                                                  LOGCAP support
either a qualitative or quantitative assessment of the
                                                              contractor’s performance
contractor’s performance. The Army Audit Agency
                                                              supporting base closures.
issued Report No. A-2010-0169-ALL, “Followup Audit
of Forward Operating Base Closures,” August 19, 2010, that stated that USF–I , in
coordination with LOGCAP, should implement a BCAT-specific QASP to monitor the
BCAT contractor personnel. The Army Audit Agency recommended the QASP include
metrics and surveillance methods to measure the contractor’s performance.

More Oversight and Monitoring is Needed
Neither the PCO nor the CORs provided adequate oversight of the work the LOGCAP
support contractor was performing. The PCO did not effectively communicate with the
CORs, and PCO turnover was high on the LOGCAP support contract. In addition, the
CORs in-theater did not adequately monitor and report contractor performance to the
PCO.

PCO Oversight
The PCO communication from RICC to the CORs in-theater was inconsistent. The PCO
oversight varied greatly between task orders and was based on where the support
contractor performance occurred. For task order 19, for DPD support, the PCO required
the CORs to complete and submit monthly reports. The CORs then presented an overall
evaluation of the LOGCAP support contractor’s performance at each semiannual award


5
 Forward operator support was defined as providing advice to combatant commanders on how to best use
LOGCAP.


                                                 24
fee board. However, the PCO did not require the CORs to submit monthly reports or
other feedback for task order 17, for MNC-I cost analyst support. The COR for task
order 17 stated that he had not provided, and had not been asked to provide, any
evaluation of the LOGCAP support contractor’s performance. Additionally, PCO
interaction with the CORs varied by geographic location. The COR for task order 19 in
Afghanistan stated that feedback from the PCO was too slow, taking anywhere from
several days to several weeks for his concerns to be addressed. For example, the COR in
Afghanistan stated that the PCO was not responsive to his requests to approve LOGCAP
support contractor personnel working overtime when the LOGCAP DPD office in
Afghanistan was undermanned. However, the COR for task order 19 at Fort Belvoir,
Virginia, had an open line of communication with the PCO and contacted the PCO on a
daily basis. The interaction between the COR at Fort Belvoir and the PCO at RICC
provided the COR clarity on how to best evaluate the LOGCAP support contractor’s
performance and allowed the COR to get responses from the PCO quickly, whereas the
PCO did not give the COR in Afghanistan the same level of attention.

                               The LOGCAP support contract has had six PCOs since
   The LOGCAP support          the contract was awarded in February 2007. The high
 contract has had six PCOs     PCO turnover made COR communication with RICC
   since the contract was      officials difficult because each PCO had their own
 awarded in February 2007.     expectations for COR reporting and none of the PCOs
documented or informed CORs of their oversight and reporting processes. The CORs
would have had uniform reporting requirements regardless of PCO turnover if the PCO
had developed a QASP that clearly described the type and method of surveillance.

COR Monitoring
The LOGCAP support contract CORs in-theater did not adequately monitor the support
contractor’s performance for task orders 17, 18, and 19. According to the FAR, cost-
reimbursement task orders require sufficient oversight to determine whether the
contractor is completing the work assigned in the task order. FAR 7.503(d) states that
services including budget preparation, acquisition planning, support in the development
of statements of work, and cost analysis, while not inherently governmental functions, are
in close support of inherently governmental functions. Further, 10 U.S.C. §2383 (2010)
states that for contracted functions that are not inherently governmental, but are closely
associated with inherently governmental duties, the PCO must ensure that appropriate
military or DoD civilians will oversee the contractor’s performance. The LOGCAP
support contract PCO delegated duties to the contractor that closely supported inherently
governmental functions, including acquisition support, cost analyst support, property
analysis, and logistics management support; however, the PCO did not require the CORs
to appropriately monitor the contractor. For example, one Army officer in Kuwait stated
that the LOGCAP support contractor assisted him when he drafted the PWS, but he was
never delegated oversight duties or asked by the COR or the PCO to provide performance
feedback. Maintaining proper oversight was critical because the LOGCAP support
contractor’s support services gave the contractor access to proprietary and sensitive
information. The LOGCAP PCO should establish a written process for assigning



                                           25
appropriate military or other DoD personnel to supervise the contractor’s performance for
those functions that are closely associated with inherently governmental duties.

COR Did Not Report to the PCO for Task Order 17
The COR for task order 17 did not provide monthly LOGCAP support contractor
performance reports to the PCO. Task order 17 on the LOGCAP support contract
was a $1.8 million cost-plus-fixed-fee task order that supported MNC-I by providing cost
analysts. The COR for task order 17 stated that he did not provide monthly LOGCAP
support contractor performance reports and the only correspondence he had with the PCO
at Rock Island Contracting Center was to exercise the option year for MNC-I cost analyst
support. Additionally, the COR stated that the PCO did not provide a QASP for task
order 17. The COR was co-located with LOGCAP support contractor personnel on task
order 17; however, without the COR creating and providing the PCO a monthly
performance report, the PCO could not determine whether LOGCAP support contractor
support for task order 17 was adequate. Consequently, LOGCAP officials could not be
assured that the Army was receiving services on task order 17 in accordance with
contract requirements.

Contractor Performance for Task Order 18 in Iraq
The COR for task order 18, a cost-plus-fixed-fee task order valued at $9.3 million for
BCATs in Iraq, did not monitor the contractor performance for that task order and relied
on the contractor to self-report their performance. The COR based his oversight on
contractor testimonial evidence, rather than receiving Government feedback or observing
LOGCAP support contractor BCATs. The COR for task order 18 stated that he received
                                    bi-weekly reports from the LOGCAP support
     The information that the
                                    contractor’s Assistant Program Manager for BCAT and
     COR used to create his
                                    that he would listen to the weekly LOGCAP support
       monthly performance
                                    contractor BCAT teleconference to determine the work
    evaluation was LOGCAP
                                    USF–I had assigned to the LOGCAP support
       support contractor-
      generated and was not         contractor and the work the LOGCAP support
                                    contractor stated had been completed. The COR
      Government feedback.
                                    would use the information from the teleconference and
the LOGCAP support contractor Assistant Program Manager to create his COR monthly
reports. The COR did not discuss employee performance with USF–I personnel that
oversaw and assigned LOGCAP support contractor work on task order 18. The
information that the COR used to create his monthly performance evaluation was
LOGCAP support contractor-generated and was not Government feedback. The COR for
task order 18 would send his monthly report to the COR for task order 19 in Iraq. The
COR for task order 19 would include a synopsis of the task order 18 monthly report in
her task order 19 report and provide one report for both task orders to the PCO.

The previous COR on task order 18, from October 2009 through January 2010, used two
PCO-designated alternate CORs who were co-located with the USF–I personnel that
assigned the BCATs work in various locations throughout Iraq. The task order 18
monthly performance reports were created by one of the alternate CORs from
October 2009 until January 2010. We could not determine whether the COR for task


                                           26
order 18 reviewed or approved the alternate COR-generated performance reports before
providing the reports to the COR6 for task order 15 who then included the reports in her
monthly report to the PCO.

Monitoring of Contractor Performance for Task Order 19
The CORs for task order 19 in Kuwait and Iraq did not adequately monitor the
contractor’s performance. The COR oversight for task order 19, a cost-plus-award-fee
task order valued at approximately $32.7 million, varied from location to location. Task
order 19 included LOGCAP support contractor work at Fort Belvoir, Kuwait, Iraq, and
Afghanistan. The PCO delegated one COR at each location to monitor contractor
performance. The COR that monitored LOGCAP support contractor performance at Fort
Belvoir, in addition to providing monthly reports, also communicated with the PCO on a
daily basis.

The COR for task order 19 in Iraq did not receive LOGCAP support contractor work
products because the LOGCAP support contractor did not provide her any support
services. The COR in Iraq stated that her method of evaluating the LOGCAP support
contractor employees was based on how the previous COR reported the LOGCAP
support contractor’s performance. The COR would receive monthly reports from two
Army officers who received some LOGCAP support contractor services. The monthly
reports contained an evaluation of the work the LOGCAP
support contractor performed and any problems that the              . . . the COR used
LOGCAP support contractor employees had during the                  LOGCAP support
month. Although the COR used the Army officers’                   contractor-generated
monthly reports to assist in maintaining oversight, CORs           work accomplished
are not permitted to delegate the oversight duties that             summaries as her
they have been assigned by the PCO. The COR                     evaluation for at least 18
combined the Army officers’ reports with the LOGCAP                of the 29 contractor
support contractor-generated weekly work accomplished               employees in Iraq.
summaries when creating her monthly report for the
PCO. However, the two Army officers’ monthly reports included evaluations of
only 11 of the 29 LOGCAP support contractor personnel in Iraq. Additionally, the COR
stated that she did not receive evaluation reports from LOGCAP personnel that received
support from the other 18 LOGCAP support contractor personnel in Iraq. Therefore, the
COR used LOGCAP support contractor-generated work accomplished summaries as her
evaluation for at least 18 of the 29 contractor employees in Iraq. Furthermore, the PCO
was using LOGCAP support contractor-generated work accomplished summaries to
assist in determining the contractor’s performance-based award fees.

The COR for task order 19 in Kuwait stated that she based her monthly performance
reports on her day-to-day interaction with the LOGCAP support contractor and would
observe the work LOGCAP support contractor employees were doing. The COR in
Kuwait stated that she would receive input from the Defense Contract Management


6
 The previous COR for task order 18 would send the monthly performance reports to the COR for task
order 15, the predecessor to task order 19.


                                                 27
Agency (DCMA) personnel that LOGCAP support contractor employees supported with
property accountability reviews at Camp Arifjan and that the monthly COR reports
evaluated all the work the LOGCAP support contractor performed to support non-
LOGCAP contracts in Kuwait. However, several Army and DCMA personnel that the
LOGCAP support contractor supported in Kuwait stated that they did not provide input to
the COR in Kuwait on the LOGCAP support contractor’s performance. Therefore, the
COR was not providing a thorough performance report on all work the LOGCAP support
contractor performed in Kuwait and may have provided the award fee board an
inaccurate description of the quality and quantity of the support contractor’s work.

Contractor May Have Received Unjustified Award Fees
The inadequate oversight provided by the PCO and the COR on the LOGCAP support
contract may have resulted in the LOGCAP support contractor receiving a portion of the
performance-based award fees of $2.3 million that the LOGCAP support contractor may
not have earned. The PCO awarded four DPD and program support task orders with
cost-plus-award-fee elements on the LOGCAP support contract. Task order 19, awarded
in February 2010, is ongoing and has not been evaluated by an award fee board. The
other three DPD and program support task orders have received performance-based fees.

FAR 16.401, “General,” states that the basis for all award fee determinations should be
documented in the contract file to include, at a minimum, a determination that the overall
cost, schedule, and technical performance is at a satisfactory level. All contracts
providing award fees must be supported by an award fee plan that establishes procedures
for evaluating the award fee and an award fee board for conducting the award fee
evaluation. Award fee plans should identify award fee evaluation criteria and describe
how the contractor’s performance will be measured.

Award Fee Plan
The LOGCAP support contract award fee plan stated that the contractor’s performance
evaluation was based on:
   x corporate management, defined as the contractor’s performance in managing the
       contract;
   x technical evaluation, which included timeliness of work products, level of
       supervision required, and the quality of the work;
   x cost control, defined as the contractor’s ability to manage costs; and
   x program support, defined as the contractor’s performance in contributing to the
       overall success of LOGCAP.

Each of these four factors was rated average, good, very good, or excellent, as shown in
Table 2, then averaged when calculating the overall performance on the task order.




                                            28
                              Table 2. Performance Ratings
 Rating     Award Fee                      Award Fee Plan Description
             Percent
Excellent     82-100      There were no material deficiencies or performance problems,
                          and the contractor was responsive in all of the areas rated.
 Very         44-80       The contractor’s performance was of a high quality and work
 Good                     exceeded the average performance level. Some minor problems
                          may have been experienced during the evaluation period if they
                          did not impact the overall level of performance.
 Good          4-40       The contractor exceeded some requirements of the contract, and
                          the work was completed at much better than minimum
                          performance requirements. Deficiencies and minor problems had
                          to be offset by very good performance and had to be immaterial.
Average          0        The contractor’s performance was minimal, and good
                          performance was offset by deficiencies.

  However, the rating criteria in the award fee plan was subjective and did not use metrics
  to further define each category. According to the award fee plan, to receive a “good”
  rating, the performance deficiencies could not be material, and minor problems needed to
  be offset by very good performance. In order to receive a “very good” rating, minor
  problems during the task order performance could have occurred if they did not impact
  the overall contractor performance. The difference between “good” and “very good” in
  this circumstance was difficult to differentiate because both included only “minor
  problems” when evaluating the contractor. For example, for the first 6 months of task
  order 15, the COR in Iraq identified several issues with technical execution including a
  lack of timeliness and the LOGCAP support contractor’s nonresponsiveness to database
  changes. Despite the deficiencies, the COR gave the LOGCAP support contractor a
  rating of “very good.” Had the COR given the LOGCAP support contractor a rating of
  “good,” the award fee board could have factored the “good” performance of the support
  contractor in Iraq into its evaluation. This could have resulted in the award fee board
  recommending an award fee of at least $132,000, or 16 percent less. The PCO had no
  assurance that the contractor earned the performance-based fees it had been given
  because there was not a requirements-based QASP or an award fee plan that defined
  metrics that the CORs could use to evaluate the LOGCAP support contractor.

  Award Fee Determinations
  As of September 2010, there were five award fee evaluation board determinations for the
  LOGCAP support contract. To date, the Army has awarded the LOGCAP support
  contractor approximately $2.3 million in performance-based fees for DPD and program
  support. Table 3 shows each DPD and program support task order that had an award fee
  board and the performance-based award fee the LOGCAP support contractor was
  awarded.



                                             29
                                   Table 3. Award Fee Determination
                                                      Award Fee                           Award Fee Given
Task         Period of           Performance             Pool             Percent          to Contractor
Order       Performance             Rating            (Rounded)           Awarded            (Rounded)
3         Base year7              Very Good             $534,838              77               $410,909
          Option year 1,
6         period 1                Very Good             $591,186              80               $472,949
          Option year 1,
6         period 2                Very Good             $650,326              76               $494,248
          Option year 2,
15        period 1                Very Good             $824,196              60               $494,517
          Option year 2,
15        period 2                Very Good             $824,196              56               $461,550

     The PCO, DCMA, and each COR for the task orders presented their evaluations of the
     LOGCAP support contractor’s performance to the award fee evaluation board. The
     award fee evaluation board then recommended to the award fee determining official the
     amount of performance-based fees the LOGCAP support contractor should be awarded.
     The award fee determining official made the final determination on the fee the LOGCAP
     support contractor was awarded. For example, for task order 15, during the second award
     fee period, the award fee evaluation board heard presentations by the CORs in Kuwait,
     Iraq, Afghanistan, and Fort Belvoir; the PCO in Rock Island; and the administrative
     contracting officer from DCMA-Houston. The award fee board then made a
     recommendation on the performance-based fees the LOGCAP support contractor should
     be awarded, and the award fee determining official made the final decision to award the
     LOGCAP support contractor 56 percent of the total award fee pool.

     As part of her presentation of the LOGCAP support contractor’s corporate management,
     the COR for task order 15 in Iraq reported to the award fee board during the second
     award fee period that the LOGCAP support contractor adequately covered performance
     gaps when personnel went on rest and recuperation. However, an Army officer reported
     to the COR that he did not have LOGCAP support contractor services when a logistics
     management specialist went on rest and recuperation during the same award fee period.
     In addition, during her presentation of the LOGCAP support contractor’s technical
     executions, the COR in Iraq reported that the LOGCAP support contractor produced an
     average of 200 high-quality products on a monthly basis. However, the COR in Iraq did
     not review LOGCAP support contractor work products and did not receive feedback from
     all LOGCAP support contractor customers in Iraq, so the COR had no assurance of the
     number, or the quality, of the LOGCAP support contractor work products. The award fee


     7
      There was one award fee board for the base year of the LOGCAP support contract. All option years have
     had semiannual award fee evaluations.


                                                      30
evaluation board determined corporate management and technical execution were
strengths in the LOGCAP support contractor’s support of the DPD in Iraq because the
award fee evaluation board was unaware that the COR in Iraq was not actively
monitoring all LOGCAP support contractor employees or receiving feedback from all
LOGCAP support contractor users. Based on COR input to the award fee board, the
LOGCAP support contractor received a “very good” performance rating and received
56 percent of the total award fee pool. Consequently, some of the $461,550 that the
LOGCAP support contractor was paid for task order 15 may have been unearned because
the COR presented inaccurate information during the award fee evaluation process.

The award fee board based its recommendations to the award fee determining official on
COR feedback; therefore, having proper COR oversight and reporting is essential for
determining appropriate award fees. However, inconsistent COR oversight may have
resulted in the LOGCAP support contractor receiving a portion of the $2.3 million in
award fees that the LOGCAP support contractor may not have earned for DPD and
program support.

Conclusion
The oversight on the LOGCAP support contract was inadequate. According to the FAR,
cost-reimbursement contracts should be used only when appropriate Government
surveillance during the period of performance would provide reasonable assurance that
efficient methods and effective cost controls were used by the contractor. In addition, the
United States Code requires the PCO to assign DoD personnel to supervise the
performance of a contractor if contractors are executing tasks that closely support
inherently governmental functions. Therefore, all of the LOGCAP support contract cost-
reimbursement task orders, which contained tasks that were closely associated with
inherently governmental functions, required extensive oversight so that DoD would
receive efficient and effective services from the contractor. The PCO did not define a
process that provided consistent interaction with the CORs for the contract, and the CORs
did not provide a sufficient level of oversight in the field. Some CORs were depending
on contractor-generated input and were not receiving feedback from the customers, while
other CORs were not providing the PCO with any input regarding contractor
performance. The COR for task order 17 did not provide reports to the PCO that
evaluated the LOGCAP support contractor’s cost analyst support, and the COR for task
order 18 did not receive feedback from USF-I officials that assigned and oversaw BCAT
work. Additionally, the LOGCAP support contract award fee plan stated:
               The primary performance monitors for performance under this contract
               are the CORs….CORs will gather data concerning the contractor’s
               performance, including that which exceeds the minimum performance
               required by the contract, and the impact of the contractor’s performance
               on the area of responsibility based on personal observation, review of
               work products, and feedback from customers in accordance with the
               QASP.




                                                 31
However, for DPD and program support task orders, the CORs were not consistently
monitoring the LOGCAP support contractor’s performance because the CORs in-theater
did not always:
    x observe the LOGCAP support contractor work,
    x review the LOGCAP support contractor-generated work products, or
    x receive customer feedback.

Therefore, the PCO had no reasonable assurance that the LOGCAP support contractor
was providing LOGCAP DPD and program support in accordance with the contract
requirements. Additionally, the Government may have paid the LOGCAP support
contractor performance-based award fees without accurately assessing the contractor’s
performance.

Recommendations
C.1 We recommend that the Logistics Civil Augmentation Program support contract
procuring contracting officer:

       a. Develop a quality assurance surveillance plan for each task order that includes:

               (1) Metrics and checklists that the contracting officer’s representatives
can use to provide consistent oversight of the Logistics Civil Augmentation Program
support contractor.

               (2) Methods for effective communication between the procuring
contracting officer and the contracting officer’s representatives.

               (3) Guidance on what should be included in a contracting officer’s
representative’s monthly report.

       b. Require the contracting officer’s representatives for task order 17 to submit
monthly reports on the Logistics Civil Augmentation Program support contractor’s
performance that clearly document contractor performance as required in the contract.

        c. Establish a written process, in accordance with 10 U.S.C. §2383 (2010), for
assigning appropriate military or DoD civilians to supervise the contractor’s performance
for those functions that are closely associated with inherently governmental duties.

Management Comments Required
We granted the U.S. Army Materiel Command an extension to the date by which we
needed to receive comments. Despite the extension, U.S. Army Materiel Command
provided comments too late to be incorporated into the final report. Therefore, if the U.S.
Army Materiel Command does not submit additional comments, we will consider those
comments as management’s response to the final report.

C.2 We recommend that the Logistics Civil Augmentation Program support contract
award fee determining official perform a thorough review of all performance-based fees


                                            32
awarded to the Logistics Civil Augmentation Program support contractor to determine
whether the contractor should repay the Government for any unjustified or unearned
award fees.

Management Comments Required
We granted the U.S. Army Materiel Command an extension to the date by which we
needed to receive comments. Despite the extension, U.S. Army Materiel Command
provided comments too late to be incorporated into the final report. Therefore, if the U.S.
Army Materiel Command does not submit additional comments, we will consider those
comments as management’s response to the final report.




                                            33
Appendix. Scope and Methodology
We conducted this performance audit from October 2009 through October 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We also performed this audit as required by Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” Section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires thorough investigation and auditing to
identify potential waste, fraud and abuse in the performance of DoD contracts,
subcontracts, and task orders for the logistical support of coalition forces in Iraq and
Afghanistan.

We conducted interviews and gathered documentation covering the period from
February 2007, when the support contract was awarded, to September 2010. In addition,
we reviewed documentation regarding the history of LOGCAP before LOGCAP IV. We
focused our review on the administration and management of the LOGCAP support
contract and how the LOGCAP support contract was being used to support the LOGCAP
performance contracts. We conducted site visits at the following locations:
    x Defense Contract Audit Agency, Fort Belvoir, Virginia
    x Defense Contract Management Agency, Houston, Texas and Camp Arifjan,
       Kuwait
    x Army Materiel Command Headquarters, Fort Belvoir, Virginia
    x Rock Island Contracting Center, Rock Island, Illinois
    x LOGCAP Executive Directorate, Fort Belvoir, Virginia
    x LOGCAP DPD Office, Camp Victory, Iraq
    x LOGCAP DPD Office, Camp Arifjan, Kuwait

We reviewed the LOGCAP support basic contract, 18 task orders, and contract
modifications, to determine whether there was adequate contract oversight in place;
quality assurance plans had been established; task orders had been properly awarded; and
performance based fees were awarded appropriately. We met with Government and
contractor personnel to discuss support contractor responsibilities and the use of
subcontractors to support the performance contractors. We met with the current and prior
PCOs for the LOGCAP support contract, contracting office management, and technical
and pricing subject matter experts at RICC. We interviewed LOGCAP program office
managers at Fort Belvoir and DPDs and their staff in Afghanistan, Iraq, and Kuwait. We
also met with LOGCAP support contractor personnel at each location. We met with
Defense Contract Management Agency and Defense Contract Audit Agency personnel to
determine their responsibilities for the LOGCAP support contract.




                                           34
Use of Computer-Processed Data
We relied on computer-processed data from the Electronic Document Access Web site.
Electronic Document Access is a web-based system that provides secure online access,
storage, and retrieval of contracts and contract modifications to authorized users
throughout the Department of Defense. We used documents retrieved from Electronic
Document Access to determine the approximate value of the LOGCAP support contract.
We compared our analysis of the support contract task orders to data provided by the
contracting office to verify the LOGCAP support contract value. As a result of our
analysis, we are confident that the Electronic Document Access Web site was sufficiently
reliable for the purpose of determining the approximate value of the LOGCAP support
contract. In addition, we relied on data from a spreadsheet we received from the Rock
Island Contracting Center to determine that the LOGCAP support contractor was
supporting approximately 71 non-LOGCAP contracts in Kuwait. To verify the contents
of the spreadsheet, we reviewed some of the non-LOGCAP contracts on the Electronic
Document Access Web site to determine whether the contracts were LOGCAP related.
In addition, we verified with Government personnel that the LOGCAP support contractor
was performing work on non-LOGCAP contracts during a meeting held at the Rock
Island Contracting Center. Therefore, we are confident in the reliability of the contents
of the spreadsheet we received from the Rock Island Contracting Center.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG), and the Army Audit Agency have issued six
reports regarding LOGCAP IV and the reliance on contractors. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-10-357, “Improvements Needed in Management of Contractors
Supporting Contract and Grant Administration in Iraq and Afghanistan,” April 12, 2010

GAO Report No. GAO-10-39, “Further Actions Needed to Address Weaknesses in
DoD’s Management of Professional and Management Support Contracts,” November 20,
2009

GAO Testimony No. GAO-08-621T, “DoD’s Increased Reliance on Service Contractors
Exacerbates Long-Standing Challenges,” April 3, 2008


DoD IG
DoD IG Report No. D-2009-114, “Transition Planning for the Logistics Civil
Augmentation Program IV Contract,” September 25, 2009




                                           35
Army Audit Agency
AAA Report No. A-2010-0169-ALL, “Followup Audit of Forward Operating Base
Closures,” August 19, 2010

AAA Report No. A-2006-0099-ALL, “Audit of Program Management in the Iraq Area of
Operations, Audit of Logistics Civil Augmentation Program Operations in Support of
Operation Iraqi Freedom,” April 26, 2006




                                       36
Assistant Secretary of the Army for Acquisition, Logistics,
and Technology Comments




                    Click to add JPEG file




                                   37
Click to add JPEG file




               38
Click to add JPEG file




               39
